 State and Local Education Agencies’ Compliance
      with the Gun-Free Schools Act of 1994



                                FINAL AUDIT REPORT




                        CONTROL NUMBER ED-OIG/A03-A0018
                                          FEBRUARY 2001




Our mission is to promote the efficient                   U.S. Department of Education
and effective use of taxpayer dollars                     Office of Inspector General
in support of American education.                         Philadelphia, Pennsylvania
                                      NOTICE
Statements that management practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. §522), reports issued by
the Office of Inspector General are available, if requested, to members of the press and
general public to the extent information contained therein is not subject to exemptions in
the Act.
   STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
        WITH THE GUN-FREE SCHOOLS ACT OF 1994

                     CONTROL NUMBER ED-OIG/A03-A0018

                              TABLE OF CONTENTS
                                                                              Page
Executive Summary……………………………………………………………………….1

Audit Results………………………………………………………………………………4

   Finding No. 1 – Two of the seven states have laws that may
   not be in full compliance with the Act………………………………………………...4

      Recommendation………………………………………………………………….5

   Finding No. 2 – Confusion over which weapons qualify as a
   firearm resulted in an inaccurate report of expulsions under the Act…………….…...6

      Recommendation………………………………………………………………….7

   Finding No. 3 – SEAs and LEAs did not report accurate data
   concerning firearm expulsions to ED…………………………………………….…...8

      Recommendations...………….……………………………………………….….11

   Finding No. 4 – Implementation of the Act could be improved by
   providing additional guidance………………………….…………………………….11

      Recommendations..……………………………………………………………....12

Other Matters…………………………………………………………………………….13

Background………………………………………………………………………………14

Audit Objective, Scope and Methodology……………………………………………….15

Statement of Management Controls……………………………………………………...16

Appendix: Summary of Individual State Audits and Findings…………………………..17

Attachment: U.S. Department of Education’s Comments to the Report………………...19

Attachment: New Mexico State Department of Education’s
    Comments to the Report..……………………………………………………………22
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                    CONTROL NUMBER ED-OIG/A03-A0018



                                EXECUTIVE SUMMARY

The objective of our audit was to determine whether the state and local education
agencies were in compliance with the Gun-Free Schools Act of 1994 (the Act). This
audit report summarizes the crosscutting issues identified in our audits of seven state
education agencies (SEAs) and forty-three local education agencies (LEAs). Individual
audit reports have been issued to each state, with recommendations for actions to address
findings where noted.

The Act requires states to have in effect a law requiring LEAs to expel from school, for a
period of not less than one year, a student who is determined to have brought a firearm to
school, except that such state law shall allow the LEA’s chief administering officer to
modify such expulsion requirement on a case-by-case basis. The Act also requires SEAs
to report annually to the U.S. Department of Education (ED) information on firearm
expulsions under such state law. The Act requires LEAs to comply with the state law,
provide an assurance of compliance with the state law to the SEA, report annually to the
SEA information on expulsions under the state law, and implement a policy requiring
referral to a criminal justice or juvenile delinquency system of any student who brings a
weapon to school.

In general, we found that five of the seven states and forty of the forty-three LEAs
included in our audit appeared to be in compliance with the Act. Instances of state and
LEA non-compliance with the Act are discussed in this audit report and the individual
audit reports issued to each state. This report addresses the crosscutting areas of concern
resulting from the individual state audits. Specifically, we found:

Two of the seven states have laws that may not be in full compliance with the Act.

We reviewed the California and Colorado state laws that implement the Act and found
that these laws may not be in full compliance with the Act. The Act refers to Title 18
U.S.C. §921 to define f irearm , which includes certain types of explosive devices. The
California state law establishes differing levels of disciplinary action for acts involving
firearms and explosives. The California state law allows LEAs discretion in ordering the
expulsion of students who possess explosive devices. If the LEA decides to expel the
student, the California state law does not specify a minimum length for the expulsion.
The Colorado state law does not require LEAs to expel for at least one year a student
who has brought a firearm to school as required under the Act. Rather the statute
establishes a maximum expulsion period of one year, leaving open the possibility that a
LEA could expel a student for some period less than a year. In addition, the Colorado
state law does not contain language allowing the chief administering officer of each LEA
to modify such expulsion requirement for a student on a case-by-case basis.

We recommend that the Assistant Secretary for Elementary and Secondary Education
take steps to ensure that all states have in effect laws that are in compliance with the Act.



                                           Page 1
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018

Confusion over which weapons qualify as a firearm resulted in an inaccurate report
of expulsions under the Act.

Our review determined that confusion over which weapons qualify as a firearm as
defined in Title 18 U.S.C. §921 resulted in errors of the count of expulsions under the Act
for the 1997-98 school year. The Act refers to Title 18 U.S.C. §921 to define firearm .
Cap guns, toy guns, bb guns, pellet guns, antique or replicas of antique firearms, gun
clips, and ammunition are not considered f irearms under Title 18 U.S.C. §921. In
conducting seven state audits, we found eighty-two expulsions reported to ED that were
not for firearms. The reported expulsions were for the possession of items such as bb
guns, pellet guns, firearm facsimile, antique or replicas of antique firearms, and a gun
clip.

We recommend that the Assistant Secretary for Elementary and Secondary Education
issue guidance to SEAs and LEAs noting that cap guns, toy guns, bb guns, and pellet
guns are not consideredf irearms under Title 18 U.S.C. §921, and therefore expulsions for
such weapons should not be included in the annual data collection performed by ED.

SEAs and LEAs did not report accurate data concerning firearm expulsions to ED.

We found significant errors in the data reported by four of the seven states. The errors
included reporting expulsions that did not involve a firearm; SEAs reporting totals that
did not equal the sum of the data submitted by all LEAs for the count of expulsions,
shortened expulsions, shortened expulsions for students who are not disabled, and
referrals to an alternative program; and expulsions reported in the incorrect school year.
Errors were due to weaknesses in SEAs’ and LEAs’ data collection and reporting
processes and ambiguity in the Act’s data collection instrument’s questions and
instructions.

We recommend that the Assistant Secretary for Elementary and Secondary Education
emphasize to SEAs and LEAs the importance of submitting accurate data on their reports
and revise the questions and instructions in the data collection instrument to clarify what
information SEAs are to report to ED.

Implementation of the Act could be improved by providing additional guidance.

Items within the Act and its non-regulatory guidance require clarification. Without
clarification, SEAs and LEAs may incorrectly implement the Act, resulting in non-
compliance, or may submit erroneous information on expulsions. Items in need of
clarification are:

   LEAs’ practices of modifying expulsions on a case-by-case basis may violate the
   Act’s requirements; and

   A LEA’s interpretation of what situations (i.e., on or off campus) fall under its
   jurisdiction may affect its implementation of the Act and the reporting of expulsions.


                                          Page 2
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                    CONTROL NUMBER ED-OIG/A03-A0018


We recommend that the Assistant Secretary for Elementary and Secondary Education
issue guidance on LEAs’ practice of modifying expulsions and what situations fall under
a LEA’s jurisdiction.

In addition to the findings noted above, our audit disclosed:

   Three of the forty-three LEAs included in the audit were not in full compliance with
   the Act. One New Mexico LEA did not expel fourteen of the twenty-six students
   who were involved in firearm incidents during the 1997-98 school year. In addition,
   two Colorado LEAs were not in full compliance with the Act, because they did not
   have a criminal justice or juvenile delinquency system referral policy in place.

   At one Wisconsin LEA, we identified seven incidents involving students with
   exceptional educational needs who brought a firearm to school and were not expelled
   by the LEA. A LEA official informed us that the LEA did not report the incidents
   involving students with exceptional educational needs because, during the 1997-1998
   school year, these students were not considered for expulsion due to a state law. The
   official informed us that the state law was subsequently changed for the 1998-1999
   school year, and the LEA now conducts manifestation hearings and expels students
   when the student’s disability is not a cause for the incident.

A draft of this report was provided to ED and each state included in the audit. In their
response, ED generally concurred with the findings, but did not concur with the first and
fourth findings’ recommendations. As a result of ED’s comments, we have made
revisions to portions of the audit report. Other than New Mexico, no state provided us
with comments on a draft of this report. In their comments, the New Mexico State
Department of Education concurred with the information reported and recommendations
specific to the New Mexico State Department of Education and their LEAs. Copies of
the responses received from ED and the New Mexico State Department of Education are
included as attachments to this report.




                                           Page 3
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018



                                   AUDIT RESULTS

In general, we found that five of the seven states and forty of the forty-three LEAs
included in our audit appeared to be in compliance with the Act. Specifically, we found:

   Two of the seven states have laws that may not be in full compliance with the Act.
   Confusion over which weapons qualify as af irear m resulted in an inaccurate report of
   expulsions under the Act.
   SEAs and LEAs did not report accurate data concerning firearm expulsions to ED.
   Implementation of the Act could be improved by providing additional guidance.

Finding No. 1 - Two of the seven states have laws that may not be in full compliance
with the Act.

The Act, Title 20 U.S.C. §8921(b)(1) states that:

       …each state receiving Federal funds under this [Elementary and
       Secondary Education Act] chapter shall have in effect a state law requiring
       local education agencies to expel from school for a period of not less than
       one year a student who is determined to have brought a weapon [firearm]
       to a school under the jurisdiction of local education agencies in that state,
       except that such state law shall allow the chief administering officer of
       such local education agency to modify such expulsion requirement for a
       student on a case-by-case basis.

We reviewed the California and Colorado state laws that implement the Act and found
that these laws may not be in full compliance with the Act.

California Education Code Section 48915 (EDC §48915) contains the California state
law covering required expulsion actions for LEAs. The section establishes differing
levels of required action for instances involving f ir earms and explosives . Under EDC
§48915 and EDC §48916, California state law allows LEAs discretion in ordering the
expulsion of students who possess explosive devic es . Also, if the LEA decides to expel a
student for possessing an explosive device, California state law does not specify a
minimum length for the expulsion. EDC §48915 does not define firearm or explosive , or
contain references to definitions contained in other sections of the state law. The Act
refers to Title 18 U.S. Code §921 to define f irearm . The definition of firearm contained
in Title 18 U.S. Code §921(a)(3) includes any dest ructive device ; certain types of
explosive devices are considered a destructive devi ce under Title 18 U.S. Code
§921(a)(4). Therefore, California state law may not be in compliance with the Act’s
requirements for students found to possess explosives or other destructive devices that
meet the Title 18 U.S. Code §921 definition of a firearm.


                                          Page 4
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                  CONTROL NUMBER ED-OIG/A03-A0018


Colorado’s state law relating to the Act can be found in Colorado Revised Statute (CRS)
22-33-105 “Suspension, expulsion, and denial of admission,” and 22-33-106 “Grounds
for suspension, expulsion, and denial of admission.” CRS 22-33-106(1)(d)(I) requires
that expulsion shall be mandatory for carrying, bringing, using, or possessing a firearm
without the authorization of the school or school district. No minimum period of
expulsion is specified in CRS 22-33-106. CRS 22-33-105(2)(c) states that LEAs may
expel, for any period not extending beyond one yea r, any student who does not qualify
for continued attendance at the LEA’s public schools.

Based upon our understanding of CRS 22-33-105 and 22-33-106, the statute does not
require LEAs to expel for at least one year a student who has brought a firearm to school
as required under the Act. Rather the statute establishes a maximum expulsion period of
one year, leaving open the possibility that a LEA could expel a student for some period
less than a year. Also, the Colorado statute does not contain language allowing the chief
administering officer of each LEA to modify such expulsion requirement for a student on
a case-by-case basis.

It should be noted that the Colorado Department of Education requires LEAs to provide
an assurance that they have a policy in effect requiring:

       The expulsion from school for a period of not less than one year of any
       student who is determined to have brought a weapon to a school under its
       jurisdiction except that such policy may allow its chief administering
       officer to modify such expulsion requirement for a student on a case-by-
       case basis.

While this assurance covers many of the requirements of the Act, it is not a Colorado
state law.

Recommendation:

1.1    We recommend that the Assistant Secretary for Elementary and Secondary
       Education take steps to ensure that all states have in effect laws that are in
       compliance with the Act.

ED’s Comments:

ED does not believe that the extent and nature of non-compliance identified in the finding
are sufficient to warrant the recommendation. ED found that California and Colorado
were interpreting and implementing their state laws consistent with the Act.
Furthermore, ED is continuing to work with the two states on these matters and will
continue to clarify its guidance as needed.




                                          Page 5
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018

OIG’s Response:

We found that two (28.5%) of the seven states included in the audit have state laws that
may not be in full compliance with the Act. Given this percentage, we believe there
could be other states with laws that may not be in full compliance with the Act. The
recommendation provides ED with a mechanism to ensure consistent application of the
Act throughout all states. In addition, non-compliance with the Act may result in the
withholding of funds under the Elementary and Secondary Education Act. The
recommendation allows ED to identify and consult with those states that unknowingly
have laws that may not be in full compliance with the Act before their Elementary and
Secondary Education Act funding is placed at risk.

The implementation of the recommendation can be accomplished in a manner that is not
overly burdensome. The Office of Elementary and Secondary Education can obtain each
state’s law relating to the Act through the use of sources available on the internet or by
requesting such laws from a SEA’s Safe and Drug-Free Schools and Communities
Program coordinator.       The Office of Elementary and Secondary Education, in
consultation with the Office of General Counsel, can then review and determine if states’
laws are in compliance with the Act.

Finding No. 2 - Confusion over which weapons qualify as a firearm resulted in an
inaccurate report of expulsions under the Act.

Our review determined that confusion over which weapons qualify as a firearm as
defined in Title 18 U.S.C. §921 resulted in errors of the count of expulsions under the Act
for the 1997-98 school year. In conducting the individual state audits we found eighty-
two expulsions reported to ED that were not for firearms. Specifically, we noted:

   Of the sixty-four expulsions reported by Maryland, twenty were for pellet guns or bb
   guns and seven were for cap or toy guns.

   The seventy-six firearm expulsions reported by Colorado included twenty-six bb gun
   and pellet gun expulsions, fourteen firearm facsimile expulsions, and an antique or
   replica of an antique firearm (black powder pistol) expulsion.

   Of the sixty-six expulsions reported by Wisconsin, thirteen were for bb guns or pellet
   guns.

   One Texas LEA submitted data concerning one expulsion for an incident involving a
   gun clip.

These expulsions should not have been included in the expulsions reported to ED because
the Act defines a weapon as a f irearm under Title 18 U.S.C. §921. Cap guns, toy guns,
bb guns, pellet guns, antique or replicas of antique firearms, gun clips, and ammunition
are not considered a f irearm under Title 18 U.S.C. §921. The Bureau of Alcohol,
Tobacco, and Firearms is the agency responsible for providing a definitive statement


                                          Page 6
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018

about the kinds of weapons that do not qualify as a firearm under Title 18 U.S.C. §921.
ED is revising the data collection instrument, and in response to both this issue and OIG
recommendations, has added a note to the definition of other firearms that states “…this
definition does not apply to such items as toy guns, cap guns, bb guns, and pellet guns.”

Inaccurate data can result in a misunderstanding of the nature and extent of the problem
of students bringing firearms to school on a local, state, and national level. In addition,
inaccurate data can result in ED, SEA and LEA officials being unable to properly
determine if the Act’s provisions are being enforced consistently.

Recommendation:

2.1    We recommend that the Assistant Secretary for Elementary and Secondary
       Education issue guidance to SEAs and LEAs noting that cap guns, toy guns, bb
       guns, and pellet guns are not considered a f irearm under Title 18 U.S.C. §921.
       Therefore, expulsions for such weapons should not be reported to ED in the
       annual data collection.

ED’s Comments:

ED concurs with this finding and has initiated contact with the Bureau of Alcohol,
Tobacco, and Firearms to obtain their concurrence with proposed language to revise the
Act’s accompanying guidance.




                                          Page 7
   STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
   WITH THE GUN-FREE SCHOOLS ACT OF 1994                                              CONTROL NUMBER ED-OIG/A03-A0018



   Finding No. 3 - SEAs and LEAs did not report accurate data concerning firearm
   expulsions to ED.

   We found significant errors in the data reported by four of the seven states for the 1997-
   98 school year. Our audit work identified errors made by SEAs and LEAs in compiling
   firearm expulsion data:




                                              California




                                                                                                                             Wisconsin
                                                                           Maryland
                                                            Colorado




                                                                                                               Virginia
                                                                                        Mexico




                                                                                                                 West
                                                                                         New




                                                                                                   Texas
      1997- 98 SCHOOL YEAR



Total Expulsions Reported by SEA             382           76             64             32       424           17           66

 Of the Count Above, Our Audits
  Noted the Following Errors or
           Omissions:
Non- Firearm Expulsions Reported
                                             (1)           (26)           (20)            -        -             -          (13)
         (BB/ Pellet Guns)
Non- Firearm Expulsions Reported
                                             (1)           (15)           (7)             -       (1)            -           -
 ( Toy/ Cap Guns/ Facsimile, etc.)
Reported Expulsions Not Involving
                                              -            (1)            (4)             -        -             -           -
           A Weapon

Firearm Expulsions Not Reported
                                               3            1              1              4        -             1           -
         by SEA/ LEA
 Firearm Expulsions Incorrectly
     Reported by SEA/ LEA
 (Not on School Grounds/ Wrong               (3)           (4)            (2)             -       (2)            -           -
  School Year/ Unverified Data/
      No Actual Expulsion)

   Note: This table contains information based solely upon our fieldwork at the seven SEAs and forty-three LEAs included in the
   respective audits.


   Examples of the SEA and LEA reporting errors include:

        One LEA accounted for forty of the sixty-four expulsions Maryland reported to ED.
        Of the forty reported expulsions, we found twenty-nine did not involve a firearm, one
        could not be verified, and one involved a firearm, but due to specific circumstances
        surrounding the case, did not result in an expulsion, and therefore, should not have
        been reported. In addition, we found the LEA did not report one expulsion to the
        Maryland State Department of Education.

        The Maryland State Department of Education reported to ED totals that do not equal
        the sum of the data submitted by all Maryland LEAs for the count of: shortened
        expulsions, shortened expulsions for students who are not disabled, and referrals to an
        alternative program.



                                                                 Page 8
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                 CONTROL NUMBER ED-OIG/A03-A0018

   The California Department of Education excluded four expulsions from the state
   report due to an error in an electronic spreadsheet formula used to calculate data
   totals; increased a LEA’s reported number of expulsions by one due to its
   misinterpretation of wording on the LEA’s report; and erroneously transferred totals
   from its spreadsheet to the reporting form for the totals of shortened expulsions,
   shortened expulsions for students without disabilities, and referrals to alternative
   schools or programs.

   The report completed by the Wisconsin Department of Public Instruction and
   submitted to ED shows “MD” (Missing Data) as the number of expulsions referred to
   an alternative program. In its memo to ED, the Wisconsin Department of Public
   Instruction indicated that it inadvertently deleted the question when combining the
   Act report form with another mandatory reporting form. The Wisconsin Department
   of Public Instruction indicated that it would re-add the question to subsequent years’
   data collection instruments.

   One Wisconsin LEA reported “N/A” (Not Applicable) for the number of firearm
   expulsions that it modified from the mandatory one-year period. We found that of the
   six firearm expulsions reported, it could have reported three modified expulsions.
   Another Wisconsin LEA reported two firearm expulsions that it modified from the
   mandatory one-year period, one of which was for a student with disabilities. We
   found that the modified expulsion for the student with disabilities involved a bb gun
   and not a firearm. Therefore, the LEA should not have reported the modified
   expulsion.

   The New Mexico State Department of Education reported thirty-two firearm incidents
   to ED for the 1997-98 school year. Based on LEAs’ reports to the SEA, the SEA
   should have reported at least thirty-six firearm incidents to ED. One LEA initially
   reported five firearm incidents to the SEA. School records support that the correct
   number of firearm incidents for the 1997-98 school year was three. During the
   review process between the SEA and the LEA, the SEA incorrectly changed the
   number of incidents to zero. Another LEA reported one firearm incident, but it was
   not entered into the SEA database and was not reported to ED.

   One Texas LEA submitted data concerning two expulsions that should have been
   reported in different time periods. One of the expulsions should have been reported
   in the 1996-97 school year, and the other one should have been reported in the 1998-
   99 school year.

   Two California LEAs improperly included students in their reports who were
   expelled in the subsequent school year. This occurred because the LEAs used the
   date of the firearm incident rather than the expulsion date to identify the applicable
   reporting period. According to California Department of Education officials, LEAs
   report incidents for the California Safe Schools Assessment based on the incident date
   rather than expulsion date. This difference may have lead to confusion regarding the
   reporting for the Act.


                                         Page 9
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                    CONTROL NUMBER ED-OIG/A03-A0018


Errors were due to weaknesses in SEAs’ and LEAs’ data collection and reporting
processes, as noted in individual state audit reports, and ambiguity in the data collection
instrument.

   The “Abbreviations and Definitions” section of the data collection instrument defines
   firearms using excerpts from Title 18 U.S.C. §921. It does not note that bb guns,
   pellet guns, or firearm facsimiles are not f irearms under Title 18 U.S.C. §921. As
   noted previously, the Bureau of Alcohol, Tobacco, and Firearms is the agency
   responsible for providing a definitive statement about the kinds of weapons that do
   not qualify as a firearm under Title 18 U.S.C. §921. ED is revising the data collection
   instrument and, in response to both this issue and OIG recommendations, has added a
   note to the definition of o t her firearms that states “…this definition does not apply to
   such items as toy guns, cap guns, bb guns, and pellet guns.”

   Question 1 states: “Please indicate the number of students expelled in your State
   under your State’s law that requires a one-year expulsion for a student who brings a
   firearm to school.” Some states may include in their answer expulsions for weapons,
   other than firearms, that are covered in their state law because the question requests
   expulsions “…under your State’s law ….” Colorado Department of Education
   officials noted that firearms are a subset of weapons for which the Colorado state law
   mandates expulsion. Because ED requested data according to “state law,” the
   Colorado Department of Education reported additional weapons such as bb guns and
   pellet guns.

   The note accompanying Question 1 states: “Do not include in your response to this
   question students who have brought a firearm to school but who have not been
   expelled [emphasis added], whether because of disability, an intervening court order,
   delays in the process, or any other reason.” Based upon this note, only expulsions
   occurring during the school year should be reported. Firearm incidents should be
   reported based upon the school year the student is expelled, not the school year in
   which the incident occurs.

The Act requires SEAs to collect information from LEAs concerning expulsions under
their state law, and report such data to ED on an annual basis. In a March 29, 1999, letter
requesting SEAs to verify their 1997-98 expulsion data, ED notes that they are committed
to collecting and reporting the most accurate data under the Act. Inaccurate data can
result in a misunderstanding of the nature and extent of the problem of firearms in
schools on a local, state, and national level. Furthermore, inaccurate data can result in
ED, SEA and LEA officials being unable to properly determine if the Act’s provisions
are being enforced consistently.




                                          Page 10
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                    CONTROL NUMBER ED-OIG/A03-A0018



Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education:

3.1      Emphasize to SEAs and LEAs the importance of submitting accurate data on their
         reports.

3.2      Revise the guidance and data collection instrument to clarify what information
         SEAs are to report to ED. Revisions should include:

         3.2.1 Instructing that only firearm expulsions be reported, with clarification that
               expulsions for other types of weapons should not be included in the data
               reported to ED.

         3.2.2 Specifying that firearm incidents be reported based upon the school year
               the student is expelled, not the school year in which the incident occurs.

ED’s Comments:

ED concurs with this finding. In addition, ED has initiated the following actions to
address the recommendations. In an October 2000 “Dear Colleague” letter to Chief State
School Officers, ED emphasized the importance of submitting accurate data. ED has
revised the data collection instrument and plans to revise the Act’s accompanying
guidance to clarify the Act’s definition of weapon , as indicated in ED’s comments to
Finding No. 2.

Finding No. 4 – Implementation of the Act could be improved by providing
additional guidance.

Items within the Act and ED’s guidance require clarification. Without clarification,
SEAs and LEAs may incorrectly implement the Act, resulting in non-compliance or the
submission of erroneous information on expulsions under the Act. The items requiring
clarification are:

      In the event that a LEA’s chief administering officer delegates his/her expulsion
      authority to another individual or entity, and the individual or entity unilaterally
      modifies an expulsion, the LEA would not be in compliance with the Act. Our
      review found one California LEA allowed school officials, other than the chief
      administering officer, to modify the expulsion requirement for students with
      disabilities. In addition, we found two Colorado LEAs where the chief administering
      officer did not render a written opinion, as required by Colorado state law, of their
      decision not to expel students who were determined to have brought a firearm to
      school. A written opinion of the chief administering officer’s decision ensures that
      only the chief administering officer exercises his/her authority under Title 20 U.S.C.
      §8921(b)(1), which states, “…each State receiving Federal funds under this chapter


                                           Page 11
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                     CONTROL NUMBER ED-OIG/A03-A0018

      shall have in effect a State law requiring local educational agencies to expel from
      school for a period of not less than one year a student who is determined to have
      brought a weapon to a school under the jurisdiction of local educational agencies in
      that State, e xcept that such State law shall allow th e chief administering officer of
      such local educational agency to modify such expu lsion requirement for a student on
      a case- by- case basis [emphasis added].”

      ED’s Guidance Concerning State and Local Responsibilities under the Gun-Free
      Schools Act of 1994 states, “Each LEA should determine, using its own legal
      framework, which chief operating officer or authority (e.g., Superintendent, Board,
      etc.) has the power to modify the expulsion requirement on a case-by-case basis.” It
      also states, “The chief administering officer may allow another individual or entity to
      carry out preliminary information gathering functions, and prepare a recommendation
      for the chief administering officer.” Based upon the Act and its accompanying
      guidance, only a chief administering officer can modify an expulsion. Therefore,
      LEAs that delegate expulsion authority to individuals or entities other than the chief
      administering officer are not in compliance with the Act.

      A LEA’s interpretation over what situations fall under its jurisdiction may affect its
      implementation of the Act and the reporting of expulsions. Title 20 U.S.C.
      §8921(b)(1) states that the law applies to schools “…under the jurisdiction of local
      educational agencies in that State…” ED’s Guidance Concerning State and Local
      Responsibilities Under the Gun-Free Schools Act of 1994 provides guidance on this
      matter. Question 25 of the guidance asks: “Does the expulsion requirement apply
      only to violations occurring in the school building? No. The one-year expulsion
      requirement applies to students who bring weapons (firearms) to any setting that is
      under the control and supervision of the LEA.” In the course of our fieldwork at two
      California LEAs, we found different reporting practices for expulsions for incidents
      that occurred off- campus , i.e., not at school or at a school-controlled activity. The
      first LEA did not report two firearm-related expulsions on its 1998-99 Act report
      because the incidents occurred entirely off-campus. The second LEA reported two
      firearm-related expulsions on its 1997-98 Act report where the incidents happened
      entirely off-campus. Both LEAs intend to continue reporting based on their different
      reporting philosophies.

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education:

4.1      Issue guidance to SEAs and LEAs that the LEA’s chief administering officer is
         responsible for the final decision to modify the expulsion requirement on a case-
         by-case basis. In addition, the guidance should suggest that the chief
         administering officer’s decision to modify an expulsion be in writing.




                                            Page 12
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                      CONTROL NUMBER ED-OIG/A03-A0018

4.2      Issue guidance to SEAs and LEAs specifying what situations fall under a LEA’s
         jurisdiction for purposes of implementing the Act and reporting expulsions under
         the Act.

ED’s Comments:

ED believes that issues, contained in a draft of this report, which require changes in
statute be addressed in an accompanying report on the OIG’s perspective on the Act.
These issues include a technical correction to a reference in the Act, imposition of a new
requirement that decisions to modify an expulsion be in writing, and clarification of
statutory intent in regards to students who possess (but did not bring) a firearm to school.
ED also believes that the issue regarding the definition of the term weapo n ,as it is used
in different sections of the Act, has been addressed in earlier findings. Furthermore, ED
does not believe that all of the recommendations are appropriate or needed.

OIG’s Response:

Based upon ED’s comments, we have decided not to address the issues that require
changes in the statute in this audit report. Therefore, issues and recommendations for
changes in statute have been removed from this audit report. We have retained in this
audit report the issues that can be best addressed through additional guidance.

                                     OTHER MATTERS

LEA Compliance with the Act - Of the forty-three LEAs included in our audit, we
found three LEAs that did not comply with the Act. The instances of LEA non-
compliance with the Act were:

      One New Mexico LEA did not expel fourteen of the twenty-six students who were
      involved in firearm incidents during the 1997-98 school year. The LEA reported to
      the SEA twelve expulsions for firearm incidents for the 1997-98 school year. Our
      review of local law enforcement reports and other records identified twenty-six
      students who were involved in firearm incidents. Although the LEA was unable to
      specifically identify the twelve students that it reported to the SEA, we confirmed that
      the LEA expelled twelve of the twenty-six students. Based on enrollment records, we
      determined that the LEA did not expel the remaining fourteen students involved in
      firearm incidents. This condition, along with recommendations to ensure the LEA’s
      compliance with the Act, was included in an audit report to New Mexico’s
      Superintendent of Public Instruction. The New Mexico State Department of
      Education concurred with our finding and the respective recommendations.

      Two Colorado LEAs were not in compliance with the Act, since they did not have a
      criminal justice or juvenile delinquency system referral policy in place. Title 20
      U.S.C. §8922 requires LEAs receiving Elementary and Secondary Education Act
      funds to have a policy requiring referral to a criminal justice or juvenile delinquency
      system any student who brings a firearm or weapon to school. We notified the LEA


                                            Page 13
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018

   officials of these conditions. The LEA officials agreed to revise their policies. The
   LEAs’ revised “Weapons in School” policies are in compliance with the requirements
   of the Act. It should be noted that during the 1997-98 school year, no incidents
   involving a student with a firearm occurred in either LEA. This condition, along with
   a recommendation for the Colorado Department of Education to review each LEA’s
   referral policy, was included in an audit report to Colorado’s Commissioner of
   Education. The Colorado Department of Education concurred with our finding, but
   believes that their revised monitoring system negates the need for our
   recommendation.

Treatment of Students with Exceptional Educational Needs - During our visit to one
Wisconsin LEA, we identified seven incidents involving students with exceptional
educational needs who brought a firearm to school and were not expelled by the LEA. A
LEA official informed us that the school district did not report the incidents involving
students with exceptional educational needs because, during the 1997-1998 school year,
these students were not considered for expulsion due to a state law. The official indicated
that during the 1997-98 school year the LEA only had the authority to remove a student
with exceptional educational needs for 10 days, after which the student had to be returned
to the original class setting. The LEA did not make manifestation determinations for any
of these students and none were expelled. Instead, they were either given alternative
services or reassigned to another school. A manifestation determination is a decision as
to whether the student’s disability caused the student to bring a firearm to school. The
official informed us that the state law was subsequently changed for the 1998-1999
school year, and the LEA now conducts manifestation hearings and expels students when
the student’s disability is not a cause for the incident.

                                    BACKGROUND

The Gun Free Schools Act of 1994 (Title 20 U.S.C. Sections 8921, 8922, and 8923)
requires states to have in effect a law requiring LEAs to expel from school for a period of
not less than one year a student who is determined to have brought a firearm to school,
except that such state law shall allow the LEA’s chief administering officer to modify
such expulsion requirement on a case-by-case basis. The Act also requires SEAs to
report annually to ED information on firearm expulsions under the state law. The Act
does not require LEAs to expel students for the possession of weapons that are not a
firearm, such as pellet guns and bb guns. States may choose to take such disciplinary
action against students found in possession of these weapons, but the expulsions would
not be reported to ED under the Act.

The Act requires LEAs to comply with the state law, provide an assurance of compliance
with the state law to the SEA, report annually to the SEA information on expulsions
under the state law, and implement a policy requiring referral to a criminal justice or
juvenile delinquency system of any student who brings a weapon to school.

For the 1997-98 school year, 56 SEAs reported a total of 3,930 expulsions of students
who brought firearms to school.


                                          Page 14
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                         CONTROL NUMBER ED-OIG/A03-A0018



                      AUDIT OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine if the SEAs and LEAs were in compliance
with the Act.

Our audit covered the 1997-1998 school year. We selected seven states as auditees:
California, Colorado, Maryland, New Mexico, Texas, West Virginia, and Wisconsin. All
of the states, with the exception of California, were randomly selected. California was
included in the audit due to its large student population.

Forty-three LEAs were included in the audit. Within each state we visited six LEAs,
with the exception of Maryland where seven LEAs were visited because we included the
largest urban LEA in the state. On the basis of student population the LEAs within each
state were categorized as large, medium, or small. Twelve LEAs (four from each
category) were then randomly selected. In Maryland, we randomly selected nine LEAs
(three from each category). From the randomly selected LEAs, we judgmentally selected
six (two from each category) for audit site visits. In California, Colorado, and Wisconsin
we substituted the largest urban LEA in each state in lieu of a randomly selected large
LEA. LEAs with fewer than five hundred students were omitted from the selection
process. We selected four schools (where available) within each LEA, where we
conducted interviews with school administration and faculty.

To accomplish our objective, we reviewed applicable state laws and LEA policies, the
methodology used by SEAs and LEAs to collect and report expulsion data, and selected
student disciplinary files. We interviewed SEA, LEA, and school administrators,
teachers, counselors, students, parent organization representatives, and law enforcement
officials.

                                Summary of Officials Intervie wed
SEA Administrators                       30       Parent Representatives                98
LEA Administrators                      150       School Security Staff                 61
School Administrators                   314       La w Enforcement Officials            129
Teachers                                474       Students                               7
Guidance Counselors                     246       Other School Personnel                 6
                                                  Total                                1,515


We performed fieldwork at the seven SEAs and the forty-three LEAs between November
1999 and May 2000. Our audit was performed in accordance with government auditing
standards appropriate to the scope of the review described above.




                                              Page 15
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                   CONTROL NUMBER ED-OIG/A03-A0018



                   STATEMENT OF MANAGEMENT CONTROLS

As part of each state audit, we assessed the system of management controls, policies,
procedures, and practices applicable to the SEAs’ and the selected LEAs’ compliance
with the Act. Our assessments were performed to determine the level of control risk for
the nature, extent, and timing of our substantive tests to accomplish the audit objectives.

For purposes of our audits, we assessed and classified the significant controls into the
following categories:

       Compliance with the state law expulsion requirement.
       Compliance with the referral policy requirement.
       Data collection and reporting.

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls. Our assessments disclosed management control weaknesses in the
above areas at one or more SEA or LEA. (See Summary of Individual State Audits and
Findings.) Statements on Management Controls are provided in each state audit report,
specifying the areas where weaknesses were noted at the particular SEA or LEA.




                                          Page 16
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                             CONTROL NUMBER ED-OIG/A03-A0018




          APPENDIX: SUMMARY OF INDIVIDUAL STATE AUDITS AND FINDINGS

California State and Local Educational Agencies’ Compliance with the Gun-Free Schools
Act of 1994 (ACN A09-A0008)
   Finding No. 1 – California state law may not require mandatory expulsions of students who bring
   explosives to school.
   Finding No. 2 – LEA’s decisions to modify the expulsion requirement were made at lower
   organizational levels than allowed by the Act.
   Finding No. 3 – CDE and LEAs made errors when compiling expulsion information for the Act
   reports.
   Finding No. 4 – LEAs did not provide CDE with school-level data as required by the Act.

Colorado State and Local Education Agencies’ Compliance with the Gun-Free Schools
Act of 1994 (ACN A03-A0008)
   Finding No. 1 – The Colorado Revised Statute may not be in full compliance with the Act.
   Finding No. 2 – Confusion over what weapons qualify as a firearm resulted in errors in the Colorado
   Department of Education’s count of expulsions under the Act.
   Finding No. 3 – Not all LEAs had in place a criminal justice or juvenile delinquency system referral
   policy as required under the Act.

Maryland State and Local Education Agencies’ Compliance with the Gun-Free Schools
Act of 1994 (ACN A03-90023)
   Finding No. 1 – Weakness in the collection and reporting of data resulted in significant errors in the
   data reported by MSDE.
   Finding No. 2 – Confusion over what weapons qualify as a firearm resulted in errors in Maryland’s
   count of expulsions under the Act.
   Finding No. 3 – One LEA’s student who was found to have brought a firearm to school was not
   handled according to the Act, state law, and school district policy.

New Mexico State Department of Education and Local Education Agencies Compliance
with the Gun-Free Schools Act of 1994 (ACN A06-A0006)
   Finding No. 1 – One New Mexico LEA did not comply with the Act.
   Finding No. 2 – The state did not accurately report firearm incidents.

Texas State and Local Education Agencies’ Compliance with the Gun-Free Schools Act
of 1994 (ACN A06-A0005)
   No findings reported.




                                                 Page 17
STATE AND LOCAL EDUCATION AGENCIES’ COMPLIANCE
WITH THE GUN-FREE SCHOOLS ACT OF 1994                          CONTROL NUMBER ED-OIG/A03-A0018


West Virginia State and Local Education Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (ACN A03-A0007)
   No findings reported.

Wisconsin State and Local Education Agencies’ Compliance with the Gun-Free Schools
Act of 1994 (ACN A05-A0011)
   Finding No. 1 – The Wisconsin Department of Public Instruction could improve data integrity and
   eliminate reporting errors.
   Finding No. 2 – The Wisconsin Department of Public Instruction needs to obtain an assurance of a
   referral policy from all LEAs each time the LEAs apply for Elementary and Secondary Education
   funding.



The audit reports can be obtained from the Internet site: www.ed.gov/offices/OIG/Areports.htm.




                                               Page 18
Page 19
Page 20
Page 21
Page 22
                            REPORT DISTRIBUTION LIST

                                                           No. of
                                                           Copies
Action Official

Mr. Thomas Corwin                                            1
Office of Elementary and Secondary Education

Other ED Offices

Mr. Terry Abbott                                             1
Chief of Staff, Office of the Secretary

Mr. William Modzeleski                                       1
Director, Safe and Drug Free Schools Program

Ms. Deborah Rudy                                             1
Group Leader, Safe and Drug Free Schools Program

Mr. Charles Miller                                           1
Supervisor, Post Audit Group, OCFO

Mr. Tom Lyon                                                 1
Office of Public Affairs, OS

Mr. Philip Rosenfelt                                         1
Assistant General Counsel

Office of Inspector General (electronically)

Inspector General                                             1
Deputy Inspector General                                      1
Assistant Inspector General for Audit                         1
Deputy Assistant Inspector General for Audit                  1
Assistant Inspector General for Investigations                1
Assistant Inspector General for Analysis and Inspections      1
Regional Inspectors General for Audit                      1 each
Director, State and Local Advisory and Assistance Team        1
Director, Non-Federal Audit Team                              1
